U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 31, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Rene Boucher v. United States of America,
S.Ct No. 19-611
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 8,
2019. Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on January 8, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, an extension of time to and
including February 7, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0611
BOUCHER, RENE
USA

MATTHEW J. BAKER
911 COLLEGE STREET
SUITE 200
BOWLING GREEN, KY 42101
270-746-2385
MBAKERLAW@BELLSOUTH.NET

